IN THE SUPREME COURT OF THE UNITED STATES

Nos. 19-267, 19-348

Our Lady of Guadalupe School, Petitioner,
V.

Agnes Morrissey-Berru, Respondent.

St. James School,Petitioner,
V.

Darryl Biel,as personal representative of
the estate of Kristen Biel, Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Brief of
Professor John D. Inazu as Amicus Curiae in Support of Petitioners contains 7,986
words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and
correct.

Executed on February 10, 2020.

ParVfi

